      June 20, 2002




 Supply Inventory
 Management
  Industrial Prime Vendor Program at
  the Air Force Air Logistics Centers
  (D-2002-112)




This special version of the Report has been revised
to omit data considered “Science Applications
International Corporation Proprietary.”


                  Department of Defense
              Office of the Inspector General
  Quality                Integrity        Accountability
  Additional Copies

  To request additional copies of this report, contact Mr. Henry F. Kleinknecht at
  (703) 604-9324 (DSN 664-9324) or Mr. Patrick J. Nix at (703) 604-9332
  (DSN 664-9332).


  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ALC                   Air Logistics Center
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
DVD                   Direct Vendor Delivery
FSC                   Federal Supply Class
IPV                   Industrial Prime Vendor
NSN                   National Stock Number
SAIC                  Science Applications International Corporation
SUP                   Standard Unit Price
infrastructure, contracting methods, administrative lead times, inventory investment,
and cost recovery rates associated with most of DoD bench-stock material business.
The Defense Supply Center Philadelphia is working to revise its concept for the IPV
Program (finding A).

The Defense Supply Center Philadelphia did not validate the accuracy of pricing data
prior to authorizing spot buy procurements. As a result, SAIC erroneously charged the
air logistics centers $79,698 on spot buy invoices. Similar conditions were reported at
Naval Aviation Depot, North Island in Inspector General of the Department of Defense
Report No. D-2001-072, and Naval Aviation Depot, Cherry Point in Inspector General
of the Department of Defense, Report No. D-2001-171 (finding B).

Management Comments and Audit Response. The Defense Logistics Agency agreed
to reengineer its market basket pricing process and supply items from the “best value”
source, to include from existing Defense Logistics Agency inventory. The Agency also
plans to remove items already priced and on contract where the savings derived by
using existing inventory to fill demand exceeds the costs to delete the items. The
Agency agreed to establish an integrated process team and develop a reengineered
approach to the IPV Program that will address the issues identified such as pricing,
inventory investment, competition, contract bundling, and other contracting issues.
The Agency agreed to refund air logistics centers an appropriate amount of overcharges
and implement procedures to prevent erroneous billings on future spot buy invoices.

The Air Force commented that the IPV Program was a test and included several
features that would be inappropriate in a permanent program. The Air Force stated the
intent of the program was to improve customer support by using commercial sources
for supplying depot repair material. The Air Force considers the IPV test program a
success and stated that the IPV contractor had improved parts availability and made
progress towards using commercial sources for supplying depot repair material at a
very modest additional cost.

The audit recognized that the IPV Program was a test initiated to explore a new and
innovative logistics solution for providing consumable items; however, the success of
the program has yet to be determined. The majority of the items supplied under the
contract were from the Defense Logistics Agency depot system and only 53 percent of
the items on contract had been priced. In addition, only about half of the priced items
on contract had been purchased and supplied by the IPV contractor. See the
Management Comments section for the complete text of the management comments.




                                           ii
Table of Contents

Executive Summary                                                i

Background                                                       1

Objective                                                        3

Findings
     A. Industrial Prime Vendor Program                          4
     B. Verification of Spot Buy Pricing                        21

Appendixes
     A. Scope and Methodology                                   23
          Scope                                                 23
          Methodology                                           23
     B. Prior Coverage                                          24
     C. Bench Stock Support Program Costs                       26
     D. Management Comments on the Finding and Audit Response   28
     E. Report Distribution                                     33




Management Comments
     Defense Logistics Agency                                   35
     Department of the Air Force                                50
Background
    Spare Parts Audits. This report is one in a series involving prices paid for
    commercial and noncommercial spare parts. The report addresses bench-stock
    material and logistics support procured from Science Applications International
    Corporation (SAIC) under the Industrial Prime Vendor (IPV) Program. Table 1
    shows items included in bench-stock material and their Federal supply classes
    (FSCs).

         Table 1. Bench-Stock Material and Federal Supply Classes
                     Material                             FSCs
               Gaskets and packing                       5330, 5331
                Nuts and washers                              5310
             Screws, bolts, and studs                  5305, 5306, 5307
              Nails, pins, and rivets                  5315, 5320, 5325


    Defense Logistics Agency Overview. The Defense Logistics Agency (DLA)
    provides supply support and technical and logistics services to DoD, Federal
    civilian agencies, and selected foreign governments. This support begins with
    joint planning for parts and support for new weapons systems, extends through
    production, and concludes with the disposal of material that is obsolete or no
    longer needed. DLA is headquartered in Ft. Belvoir, Virginia, with field
    activities worldwide. DLA buys and manages a vast number and variety of
    items used by all the military Services and Federal civilian agencies, including
    hardware and electronic items used in the maintenance and repair of equipment
    and weapons systems. Customers determine their requirements, and one of five
    DLA supply centers consolidate the requirements and procure supplies in
    sufficient quantities to meet customers’ projected needs. Many procured items
    are delivered directly from a commercial vendor; other items are stored and
    distributed through a complex of nationwide depots. This report addresses only
    the Defense Supply Center Philadelphia (DSCP), which is a troop and general
    supply inventory control point.

    Section 912 Report. Section 912(c) of the FY 1998 National Defense
    Authorization Act directed the Secretary of Defense to submit to Congress an
    implementation plan to streamline acquisition organizations, workforce, and
    infrastructure. In response, the Secretary of Defense prepared a report to
    Congress, “Actions to Accelerate the Movement to the New Workforce
    Vision,” April 1, 1998. The report included a section that addressed prime
    vendor contracts.
               Greatly Expanded Prime Vendor and Virtual Prime Vendor. As a
               result of the revolutions in the marketplace - in terms of
               transportation, manufacturing, and technology - it is no longer
               necessary for DoD to manage supplies. What DoD needs to do is
               manage suppliers through programs such as Prime Vendor; and where



                                          1
    Table 2 shows the intended IPV Program benefits.

                        Table 2. Intended IPV Program Benefits
                       Reduced                                       Increased
               Logistics response time                               Readiness
               Customer material costs                       Financial accountability
                     Transactions                                 Rapid response
                 Inventory investment                           Material availability
      Storage, handling, and transportation costs   Opportunities for infrastructure streamlining




Objective
    The primary audit objective was to determine whether the DLA IPV Program is
    being effectively implemented and provides the best value for the Air Force.
    See Appendix A for a discussion of the scope and methodology, and
    Appendix B for prior coverage related to the objectives.




                                              3
            made progress transitioning to a commercial source for bench stock. Those
            accomplishments were achieved because SAIC employed dedicated staff at the
            centers, implemented an innovative bench-stock management process, and
            negotiated a long-term direct vendor delivery subcontract with a single
            commercial supplier. In fact, the subcontract supports 11,434 items and
            requires a 98 percent fill rate with routine delivery within 3 days.

            Improved Parts Availability. Although comparable data on parts availability
            prior to the IPV Program is not available, evidence indicates that the IPV
            Program at the ALCs has increased parts availability. Again, although difficult
            to measure, increased parts availability can only have a positive impact on repair
            work performed at the ALCs. SAIC provided dedicated staff at each ALC and
            implemented an innovative process that significantly changed how bench-stock
            items were managed. SAIC uses pre-expended bins2 to manage ALC bench
            stock, and SAIC employees check bin stock levels daily. When a bin is half full
            or less, a SAIC employee scans a bar code on the bin, which places an order for
            the part immediately. Bench-stock shipments are received by SAIC at a central
            staging area and are reconciled against the shipping documents. The material is
            also randomly compared to material requisitions and checked for quality. The
            parts are then scanned into the SAIC material management system as “received”
            and placed into a bin for delivery. Trucks make parts deliveries to the ALCs
            twice a day. All parts are warranted for 1 year, once the part is placed in the
            bench stock bin.

            Bin fill rates are calculated by multiplying the total number of bins supported by
            the number of days in the month and then subtracting the cumulative total
            number of bins found empty each day for the month. The result of that
            calculation is then divided by the total number of bins supported multiplied by
            the number of days in the month. Table 3 shows bin fill rates by each ALC for
            April 2001.

                                Table 3. ALC Bin Fill Rates (April 2001)
                                                             Cumulative
                                            Total Bins       Empty Bin            Fill Rate
                            ALC             Supported          Count               Percent
                       Warner Robins          51,681          19,323                  98.8
                       Ogden                  20,889           1,004                  99.8
                       Oklahoma City          32,056           3,265                  99.7
                        Total                104,626          23,592                 99.2




2
    Pre-expended bins, also called bench stock, consist of spare parts and industrial hardware stored near or
    at the point of use, which mechanics employ in the maintenance, overhaul, and repair of aviation and
    related weapons systems.
                                                         6
          $ 2 ,5 0 0 ,0 0 0

          $ 2 ,2 5 0 ,0 0 0

          $ 2 ,0 0 0 ,0 0 0

          $ 1 ,7 5 0 ,0 0 0

          $ 1 ,5 0 0 ,0 0 0
Dollars




          $ 1 ,2 5 0 ,0 0 0

          $ 1 ,0 0 0 ,0 0 0

             $ 7 5 0 ,0 0 0

             $ 5 0 0 ,0 0 0

             $ 2 5 0 ,0 0 0

                        $0
                              F eb-   M ar-   A p r-   M ay-   Jun-   J u l-   A ug-   S ep-   O c t-   N ov-   D ec-    Jan-      F eb-   M ar-   A p r-
                               00      00      00       00      00     00       00       00     00       00      00       01        01      01      01

                                                                               A L C   I n v o ic e s                   S p o t-B u y s
                                                                                                                        S A IC
                                                                                                                        D epot




                  Figure 3. Comparison of IPV and Depot Dollars


IPV Program Costs and Problems
                  There are increased costs associated with these improved services and other
                  problems associated with the existing IPV Program that need to be addressed.
                  These include increased service costs, placing sufficient bench-stock material on
                  contract at cost-effective prices, and not making use of existing depot inventory.

                  SAIC Services Costs. The cost of managing bench stock at the ALCs has
                  increased under the IPV Program. DSCP now spends $6.4 million annually for
                  SAIC to supply bench stock to the ALCs versus the $1.8 million it spent prior to
                  implementation of the program (amounts included the cost of fully burdened
                  material handlers, inventory holding costs, equipment, and supervision).
                  Consequently, the improvements that DSCP has achieved in bin management
                  and parts availability are costing DoD an additional $4.6 million. Prior to the
                  IPV contract, the ALCs employed 45 staff to work bench stock. Under the IPV
                  Program, the number of staff working bench stock has increased to 100. See
                  Appendix C for a detailed breakdown of program costs before and after DSCP
                  implemented the IPV Program at the ALCs.
                  Placing Material on Contract Economically. DSCP has had problems placing
                  material on the IPV contract within established cost goals. As of May 2001,
                  10,755 of the 20,122 (or 53 percent) items covered by the contract had been
                  priced and placed on contract. The median value3 of the 10,755 priced items4
3
   The median value is the middle percentage of the entire population.
4
   Actual calculations were based on either 10,666 or 10,706 items because data was not available for all
   items.
                                                                                 8
        was 144.1 percent of the mean unit acquisition cost and 87.9 percent of the
        FY 01 SUP. Approximately half of the priced items had been purchased
        (5,328) from SAIC by the end of April 2001. The median value of purchased
        items5 was 143.3 percent of the mean unit acquisition cost and 86.3 percent of
        the FY 2001 SUP.

               Market Baskets. DSCP used market baskets or groups of items to place
        material on the IPV contract. The use of this market basket approach meant that
        some items could be higher than 80 percent of the SUP while others were lower;
        but cumulatively, the total cost of the baskets could not exceed 80 percent of the
        SUP. SAIC submitted groups of items (with expected demand quantities) to
        DSCP for approval. DSCP added items to the contract without regard to
        individual unit prices if the market baskets met the 80 percent criteria. SAIC
        used the DLA supply system (without earning a profit) for those items that were
        not procurable within the 80 percent SUP threshold or were never placed on
        contract because they caused the market baskets to exceed 80 percent of the
        SUP.

                Problems with the Market Basket Approach. Contract prices overall
        appeared to be within the contract cost goal of 80 percent of SUP. However,
        the DSCP market baskets used inaccurate 2-year demand estimates based on
        significantly different quantities for the market basket comparisons for a number
        of bench-stock items that were placed on the contract. For example, the market
        basket that added turnlock fastener receptacles (national stock number [NSN]
        5325-00-326-5341) compared the SUPs resulting from procurements to satisfy
        two vastly different estimates of demand. In August 1995, DLA purchased 50
        turnlock fastener receptacles for $42.74 each. The DLA SUP resulting from that
        procurement was $74.75. When the receptacles were added to the IPV contract,
        the market basket compared that SUP to a $6.75 per each receptacle price
        (11 times lower than the last DLA SUP) that resulted from a SAIC procurement
        to meet a 2-year estimated demand of 36,000 for the ALCs. DLA has never
        purchased more than 2,500 receptacles in a year. In fact, to date, not a single
        receptacle has been purchased under the IPV contract. For market basket
        comparison purposes, the total IPV contract price was $243,000 (36,000
        x $6.75) versus a DLA SUP total price of $2,691,000 (36,000 x $74.75) or a
        positive market basket variance for the IPV Program of $2,448,000.

        In another example, the market basket that added screw caps (NSN 5305-00-
        724-7218) to the contract compared the SUPs that resulted from procurements to
        satisfy two vastly different estimates of demand. In the first part of 2001,
        DSCP purchased 11,963 screws caps for $0.18 each. The DLA SUP resulting
        from that procurement was $0.23. The market basket that added the machine
        screws to the IPV contract compared that SUP to a $8.32 per each cap price
        (41 times higher than the last DLA SUP) that resulted from a SAIC procurement
        to meet a 2-year estimated ALC demand of 34. DLA has never purchased less
        than 1,200 caps in a year. In fact, to date, no caps have been purchased under
        the IPV contract. For market basket comparison purposes, the total IPV

5
Actual calculations were based on either 5,284 or 5,309 items because data was not available for all
items.
                                                   9
                                  contract price was $282.88 (34 x $8.32) versus a DLA SUP total price of $6.80
                                  (34 x $0.23) or a negative IPV Program market basket variance of $275.06.
                                  Figure 4 shows the range for all of the items purchased under the IPV Program
                                  and the number of items that fall within the contract cost objective of 80 percent
                                  of SUP. Variations have been capped at 200 percent.

                                   200
                                   180
Percent Variation from FY01 SUP




                                   160
                                   140
                                   120
                                   100
                                    80
                                    60
                                    40
                                    20
                                     0
                                         1   276   551   826 1101 1376 1651 1926 2201 2476 2751 3026 3301 3576 3851 4126 4401 4676 4951 5226
                                                                                        Ite m s




                                  Figure 4. IPV Contract Prices Compared to the FY 01 DLA SUP

                                  The use of unsuitable data, like that described in the previous examples, has
                                  caused the SUP comparison for a number of bench-stock items to
                                  inappropriately favor the use of the DLA or SAIC supply chains for providing
                                  the material to the ALCs. Further, the use of the unsuitable data invalidates the
                                  DSCP approach for placing bench-stock material on the contract, as it may have
                                  caused a market basket to be incorrectly accepted or rejected. For these
                                  reasons, we believe that the market basket approach is not appropriate to
                                  determine which parts should be placed on the IPV contract.

                                  DSCP should discontinue use of the market basket approach to determine which
                                  parts are placed on the IPV contract. Instead, DSCP should adopt an approach
                                  that evaluates each item separately and uses the most cost-effective source of
                                  supply to satisfy the ALCs bench-stock requirements. Further, because
                                  unsuitable data have been used for placing bench-stock items on contract in the
                                  past, DSCP should reevaluate all of the existing IPV items using the new
                                  approach.

                                  Using Existing Inventory. The IPV Program at the ALCs did not use existing
                                  depot inventory. DSCP added items to the IPV contract without regard to
                                  previous depot inventories. As of the 3rd quarter of FY 2001, 4,031 items
                                  supported by the IPV contractor have depot inventories in excess of 3 years.
                                  For example, close tolerance screws (NSN 5305-01-346-3748) have an annual
                                  demand of 2,131. The Defense depots have 47,869 screws on hand, which
                                  equates to a 22.5-year supply. DSCP did not need to place the screws on the


                                                                               10
           IPV contract. In addition, the depots are maintaining inventory for another
           602 IPV contract items for which DLA reports no demand. Figure 5 shows that
           depot inventories could be used to fill IPV demand.


                                     10

                                      9

                                      8

                                      7
                Years of Inventory




                                      6

                                      5

                                      4

                                      3

                                      2                                                            T his area represents savings D SC P could
                                                                                                   achieve by using existing inventories to
                                      1                                                            support IP V contract dem and.

                                      0
                                          1

                                              335

                                                    669

                                                          1,003

                                                                  1,337

                                                                          1,671

                                                                                  2,005

                                                                                           2,339

                                                                                                    2,673

                                                                                                            3,007

                                                                                                                    3,341

                                                                                                                            3,675

                                                                                                                                    4,009

                                                                                                                                            4,343

                                                                                                                                                    4,677

                                                                                                                                                            5,011

                                                                                                                                                                    5,345
                                                                                          C ontract Item s




           Figure 5. Depot Inventory for Contract Items6

           DSCP could save $8,966,149 by using existing depot inventories to fill
           IPV demand for the remainder of the contract. DSCP should review inventory
           levels and discontinue placing items on the IPV contract with more than 3 years
           of inventory. DSCP should also take appropriate action in accordance with
           contract terms to remove items with more than 3 years of inventory and start
           using existing depot inventories as the first choice to fill contract demand.
Bench-Stock Material Outside the IPV Program
           The current IPV Program was not designed to address problems existing with
           the supply infrastructure, contracting methods, administrative lead times,
           inventory investment, and cost recovery rates associated with the majority of
           DoD bench-stock material business.



6
    We removed 2 years of DLA customer demand before calculating the number of years existing
    inventories would support IPV demand. Further, for presentation purposes, we capped the number of
    years at 10.
                                                                                     11
implemented. Figure 7 shows that the investment in inventory held at the depots
to meet non-IPV customer demand has steadily increased, from $66.7 million in
FY 1999 to $75.7 million in FY 2001, for the 10,755 items on the IPV contract.
                               80
Inventory Value ($ Millions)




                               60



                               40



                               20



                                0
                                     FY 1999          FY 2000          FY 2001          FY 2001

                                    Q u a r te r 1   Q u a r te r 1   Q u a r te r 1   Q u a r te r 3




Figure 7. DLA Bench-Stock Material Inventory is Trending Up
Conventional Bench Stock Cost Recovery Rates. The IPV Program has
increased the cost recovery rate non-IPV customers pay on bench stock. As
stated previously, the amount DLA charges customers for bench stock is derived
from the cost of material plus a cost recovery rate which helps recoup the costs
incurred to maintain the defense supply infrastructure. As DSCP transfers its
best customers’ sales to the IPV Program, the conventional bench stock cost
recovery rate has increased. Thus the (now smaller) non-IPV Program
customer base absorbs the costs associated with managing two systems
concurrently.

In FY 2000, DSCP established a separate cost recovery rate for bench-stock
items. The new rate of 57.2 percent was significantly higher than the DSCP
overall cost recovery rate of 39.8 percent. In FY 2001, DSCP again hiked the
cost recovery rate for bench stock to 74.9 percent. The overall cost recovery
rate grew to 40.5 percent. In FY 2002, DSCP pulled general hardware and
paperless ordering procurement system stocked items out of its cost recovery
rate for bench stock. If those were put back into the cost recovery rate for
bench stock, the FY 2002 rate would be 64.5 percent, versus 34.2 percent for
the overall DSCP cost recovery rate. DSCP officials stated the FY 2002 cost
recovery rate is artificially high because the projected budgeted sales were lower
than actual sales. DSCP officials believe the actual rate is closer to the FY 2000
cost recovery rate. The use of the artificially high FY 2002 cost recovery rate
for market basket comparisons causes items to be placed on the IPV contract at
uneconomical prices.

We reviewed the various cost elements of the bench stock cost recovery rates
for FYs 2000 through 2002 and determined that the rates did not accurately
reflect the costs associated with DSCP managing bench-stock material. Table 5
shows that if costs not directly associated with bench-stock material were
removed, and the IPV Program was discontinued, the cost recovery rates for
bench-stock material would be 45.3 percent for FY 2000, 49.4 percent for
                                     14
        FY 2001, and 56.2 percent for FY 2002. Table 5 also shows IPV Program
        sales at $42.1 million—about 14.2 percent of overall bench stock sales of about
        $296.5 million.

        Table 5. DSCP Sales, Cost of Operations, and Cost Recovery Rates ($ millions)

                                                                                          Adjusted
                                                        Bench                        Bench    Bench stock
                                      Overall           Stock*            IPV        Stock*     and IPV
              FY 2000
        Sales                         $776.6            $250.9          $20.0       $250.9           $270.9
        Cost of Operations            $309.0            $143.5           $1.2       $115.6           $122.6
        Cost Recovery Rates           39.8%             57.2%           5.7%        46.1%            45.3%

              FY 2001
        Sales                         $923.0            $245.8          $38.0       $245.8           $283.8
        Cost of Operations            $373.6            $184.2           $2.2       $135.4           $140.3
        Cost Recovery Rates           40.5%             74.9%           5.7%        55.1%            49.4%

              FY 2002
        Sales                         $966.6              $85.9         $42.1       $254.4           $296.5
        Cost of Operations            $330.7              $55.4          $2.4       $164.1           $166.5
        Cost Recovery Rates           34.2%              64.5%          5.7%        64.5%            56.2%

        *FY 2000 and 2001 figures include Depot operations, Defense Reutilization and Marketing Service, and
        other non-bench stock adjustments. FY 2002 figures are artificially high because projected budgeted sales
        were lower than actual sales figures.



        As conventional bench stock sales are transitioned to the IPV Program without
        corresponding infrastructure cost reductions, the DSCP cost recovery rate for
        traditional bench stock support increases. For example, if DSCP has bench
        stock sales of $150 million and costs of $100 million, the bench stock cost
        recovery rate would be 66.7 percent. If $50 million of sales were transferred to
        the IPV Program without an infrastructure or cost reduction, non-IPV customers
        (sales of $100 million) would face a cost recovery rate of 100 percent.
        Increases in the DSCP cost recovery rates make it difficult to measure the cost
        effectiveness of the IPV Program. The cost effectiveness of the IPV Program is
        based on a comparison with conventional prices for bench-stock material.
        Unfortunately, the comparison with conventional support changes dramatically
        from year to year with changes in the DSCP cost recovery rate. For example, if
        DSCP purchases a bench stock item for $1.50, the SUP in FY 2000 would be
        $2.35 ($1.50 x 1.5727), in FY 2001 the SUP would be $2.62 ($1.50 x 1.749),
        and in FY 2002 the SUP would be $2.47 ($1.50 x 1.645 percent). If the IPV
        contract price for the item is $1.95, it would exceed 80 percent of the SUP

7
Cost recovery rate of 57.2 percent plus the cost of the item at 100 percent = 157.2 percent or 1.572
factor.
                                                      15
    ($2.35 x 80 percent = $1.88) in FY 2000. However, in FYs 2001 and 2002 as
    the DSCP cost recovery rates increase, the item’s contract cost ($1.95) would
    not exceed 80 percent of the SUP, $2.10 ($2.62 x 80 percent) and $1.98 ($2.47
    x 80 percent) respectively. Consequently, as the DSCP cost recovery rate for
    bench-stock material increases and DSCP becomes less efficient in managing
    conventional bench-stock material, the IPV Program gives the false appearance
    of being more cost-effective.

IPV Generation II Program
    DSCP is working to change its bench stock management concept for the IPV
    Program. Under its IPV Generation II Program, DSCP plans to use a best
    value approach to placing items on contract and consolidate customer
    requirements beyond its original concept of single sites towards customer
    groupings. The IPV Generation II prime vendor will manage the various
    sources of supply (commercial, DLA inventory, strategic sources) to achieve the
    most cost-effective support for the customer and DLA. For example, where the
    customer segment is the primary user, the prime vendor procures worldwide
    demand for all customers. This allows the prime vendor to establish supplier
    agreements and meet the delivery requirements of the contract, while incurring
    minimal investment in inventory, therefore passing the cost of the most efficient
    alternative on to the Government. Additionally, the integrator will have access
    to DLA arrangements with suppliers for direct supply of items to the
    integrator/site.

    At the IPV sites, the contractor is responsible for full supply chain management
    (100 percent fill rate) for all of the items covered under the contract, regardless
    of the source of the item. Where the contractor achieves effective commercial
    pricing for an item, the contractor is responsible for IPV site requirements and
    additionally responsible for the acquisition of the item to support worldwide
    demand. In this scenario, the contractor is not responsible for distribution, only
    acquisition of the parts. Distribution to the non-IPV customers will be
    performed through the DLA distribution system. The IPV Generation II
    Program has not yet been officially approved by DLA headquarters.

    We remain concerned about the prime vendor’s ability to supply parts as cost
    effectively as DLA and part manufacturers. In addition, DSCP would pay a
    premium price to the prime vendor for sending the majority of parts DVD to
    Defense depots to support other customers. Further, the Generation II IPV
    concept needs to address depleting existing depot inventory before adding items
    to the contract or the competition and the bundling of requirements problems
    that should be resolved before the end of the test period.




                                         16
   solely responsible for the contracting function to ensure fully leveraged buying,
   adequate support for each item, and compliance with all acquisition guidance.
   Figure 8 shows how DSCP might support bench stock customers in the future.




                                                                               DLA Depots

                                                               Long-Term
                                                              Contracts with
                                                              Manufacturers


       DSCP                                                   Long-Term
                      Compete Unbundled                      DVD Contracts
                         Worldwide                            with Other
                         Benchstock                            Businesses          Parts Shipped
      Bench Stock       Requirements
      Management
       Contract




                           IPV Integrators
                       IPV Integrators will receive and
                       distribute material received to
                       bins, reorder material when
                       necessary, and initiate spot buys.


                                                            Other Customers
                         ALC Customers


   Figure 8. Future of DSCP Bench Stock Management

   DLA needs to convene a performance improvement team composed of
   representatives from all relevant stakeholders, including appropriate oversight
   agencies, to plan and execute a reengineered best value approach to managing
   bench-stock material for all customers that addresses competition and
   restrictions on contract bundling.

Summary
   DSCP has promoted the IPV Program for the ALCs as a best commercial
   business practice−an improved way for DLA to manage suppliers and not
   supplies. We remain concerned about the DLA overarching goal to shift
   business practices from managing supplies to managing supplier relationships.
                                             18
    We believe the Defense supply system would be better served if the DLA
    overarching goal was to become a world class, competitive procurement and
    logistics support organization in order to provide better, faster, and cheaper
    support for the warfighter around the world, around the clock.

Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are
    found in Appendix D.

Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Commander, Defense Supply Center
    Philadelphia require Industrial Prime Vendor Program officials to:

           a. Discontinue the use of the market basket approach to determine
    which bench-stock items are placed on the industrial prime vendor contract.
    Instead, evaluate each item separately and select the most economical source
    to supply material.

    Management Comments. The Defense Logistics Agency partially concurred
    with the recommendation, stating that the pricing process—using the market
    basket approach—had been reengineered. The new process scrutinizes
    forecasted parts usage in greater detail and employs a pricing algorithm that
    compares item prices to historical prices. All items whose prices fall outside
    acceptable limits are rejected and reviewed manually. The new pricing process
    also will include a sourcing model that will identify and remove items from
    further commercial pricing actions. Support of those items will be provided
    from other sources, to include: existing inventory, strategic source alliances,
    and direct vendor delivery.

    Audit Response. Although the Defense Logistics Agency partially concurred,
    we consider the comments responsive. The modifications the Defense Supply
    Center Philadelphia made to its pricing process meets the intent of the
    recommendation. Thus, no additional comments are required.

           b. Review inventory levels and discontinue placing items on the
    industrial prime vendor contract with more than 3 years of inventory.

    Management Comments. The Defense Logistics Agency partially concurred
    and stated that its new pricing process will include a sourcing model that will
    identify and cause items to be supplied by the “best value” source, including
    from existing Defense Logistics Agency inventory.




                                        19
Audit Response. The Defense Logistics Agency comments were responsive.
The modifications the Defense Supply Center Philadelphia made to its pricing
process meets the intent of the recommendation.

       c. Take appropriate action in accordance with contract terms to
remove items with more than 3 years of inventory and start using existing
depot inventories as the first choice to fill contract demand.

Management Comments. The Defense Logistics Agency partially concurred
and stated that the successful performance by the Industrial Prime Vendor
Program contractor and a favorable cost study resulted in the Air Force
approving full implementation of the Industrial Prime Vendor Program at the air
logistics centers. Further, a plan was being developed to deplete existing
inventory and remove items already priced and on contract where the savings
exceeded the costs incurred to delete the items.
Audit Response. We consider the Defense Logistics Agency comments
responsive. Additional comments are not required.

A.2. We recommend that the Director, Defense Logistics Agency convene a
performance improvement team composed of representatives from all
relevant stakeholders, including appropriate oversight agencies, to plan and
execute a reengineered best value approach to managing bench-stock
material for all customers that addresses competition and restriction on
contract bundling.

Management Comments. The Defense Logistics Agency concurred and stated
that it had established an integrated process team consisting of representatives
from Headquarters Defense Logistics Agency, Defense Supply Center
Philadelphia, Defense Supply Center Richmond, and Defense Supply Center
Columbus, to develop a reengineered the approach used by the Industrial Prime
Vendor Program to manage bench-stock material. The Defense Logistics
Agency also stated it will collaborate the execution of its reengineered program
with the Inspector General of the Department of Defense.




                                   20
    had effective delivery dates on the contract and SAIC’s spot buy unit prices
    were higher than the contract prices. Table 6 summarizes the erroneous charges
    approved and paid by DSCP.


                              Table 6. Summary of Erroneous Charges
           ALC                 Lines          Billed         Corrected                         Overcharges
     Ogden                      18         $ 51,624.55      $20,001.80                          $31,622.75
     Warner Robins*             29           68,090.70       36,549.49                           31,541.21
     Oklahoma City              21           26,972.94       14,736.68                           12,236.26

         Sub-Total       68           $146,688.19                         $71,287.97            $75,400.22
              DLA Surcharge (5.7 percent)                                                       $ 4,297.81
      Total                                                                                     $79,698.03

     * Four items were excluded because contract prices were based on questionable quantities significantly
     less than the spot buy quantities purchased.



    DSCP needs to implement procedures to ensure that future spot buy material
    procurements are priced and paid for in accordance with the terms of the
    contract. DSCP also should obtain a full refund from SAIC for erroneous
    charges and take steps to reimburse the ALCs for the full amount of erroneous
    charges.

Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Commander, Defense Supply Center
    Philadelphia:

           1. Implement procedures to ensure that future spot buy material
    procurements are priced and paid for in accordance with the terms of the
    contract.

            2. Obtain a full refund from the Science Application International
    Corporation for erroneous charges, including lost interest, and take
    appropriate steps to reimburse the air logistics centers for the full amount
    of the contract overcharges.

    Management Comments. The Defense Logistics Agency agreed to refund the
    air logistics centers the full amount of the erroneous charges and to implement
    procedures to prevent erroneous billings on future spot buy invoices.




                                                  22
Appendix B. Prior Coverage
     During the last 5 years, the General Accounting Office has issued four audit
     reports, and the Inspector General of the Department of Defense has issued nine
     audit reports discussing either logistics response time or prices for spare parts in
     the Acquisition Reform environment.

General Accounting Office
     General Accounting Office, Report No. GAO-01-22 (OSD Case No. 2080),
     “Defense Acquisitions: Price Trends for the Defense Logistics Agency’s
     Weapon Systems Parts,” November 2000

     General Accounting Office, Report No. NSIAD-00-30 (OSD Case No. 1920),
     “Opportunities Exist to Expand the Use of Defense Logistics Agency Best
     Practices,” January 2000

     General Accounting Office, Report No. NSIAD-00-21 (OSD Case No. 1868),
     “Management of Repair Parts Common to More than one Military Service can
     be Improved,” October 1999

     General Accounting Office, Report No. NSIAD-99-90 (OSD Case No. 1808),
     “DoD Pricing of Commercial Items Needs Continued Emphasis,” June 1999

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2001-171, “Industrial Prime Vendor Program at the
     Naval Aviation Depot - Cherry Point,” August 6, 2001

     IG DoD Report No. D-2001-072, “Industrial Prime Vendor Program at the
     Naval Aviation Depot - North Island,” March 5, 2001

     IG DoD Report No. D-2000-099, “Procurement of the Propeller Blade Heaters
     for the C-130 and P-3 Aircraft,” March 8, 2000

     IG DoD Report No. D-2000-098, “Spare Parts and Logistics Support Procured
     on a Virtual Prime Vendor Contract,” March 8, 2000

     IG DoD Report No. 99-217, “Sole-Source Commercial Spare Parts Procured on
     a Requirements Type Contract,” July 21, 1999

     IG DoD Report No. 99-101, “Logistics Response Time for the Direct Vendor
     Delivery Process, Defense Supply Center, Columbus,” March 4, 1999

     IG DoD Report No. 99-026, “Commercial Spare Parts Purchased on a
     Corporate Contract,” October 30, 1998


                                          24
IG DoD Report No. 98-088, “Sole-Source Prices for Commercial Catalog and
Noncommercial Spare Parts,” March 11, 1998

IG DoD Report No. 98-064, “Commercial and Noncommercial Sole-Source
Items Procured on Contract N000383-93-G-M111,” February 6, 1998




                                25
Appendix C. Bench Stock Support Program
            Costs
            Table C-1. Bench Stock Support Costs Prior to the Implementation of the
                                       IPV Program

                                                       Government Staff
                   Location                 Number                          Amount


           Oklahoma City
            Support                            8                          $ 342,479
            Oversight                          3                             30,448
            Other Costs8                                                    105,854
             Subtotal                          11                         $ 478,781

           Ogden
            Support                             8                         $ 316,436
            Oversight                           3                            30,654
            Other Costs                                                      66,434
             Subtotal                          11                         $ 413,524

           Warner Robins
            Support                            14                         $ 606,047
            Oversight                           9                            44,027
            Other Costs                                                     240,934
             Subtotal                          23                         $ 891,008

               Total                           45                         $1,783,313




8
    Other costs includes the costs for inventory holding and equipment.
                                                     26
Appendix D. Management Comments on the
            Finding and Audit Response

Defense Logistics Agency Comments
     DLA Comments on Sufficient Time to Test Innovative Logistics Solution.
     DLA stated that the report does not fully appreciate that the IPV Program was a
     test initiated to explore a new and innovative logistics solution for providing
     consumable items and that sufficient performance must occur to properly assess
     the effectiveness of the program.

     Audit Response. The report discusses the IPV Program as a test; however,
     sufficient performance had occurred to identify deficiencies with the design and
     implementation of the program.

     DLA Comments on Qualitative and Quantitative Analysis of IPV Program
     Benefits. DLA stated that the report does not provide sufficient quantitative or
     qualitative analysis relating to program benefits such as improved fill rates and
     readiness support.

     Audit Response. The report clearly states that parts availability had improved
     and recognizes that improved availability can only have a positive impact on
     readiness support. The report also recognizes the reasons for improved
     availability such as dedicated bench stock support at the ALCs and the use of
     spot buy procedures. In addition, the report shows that the majority of the
     bench stock material supplied under the IPV Program came from DLA depots
     (53 percent of the line items and 59 percent of the dollars). Therefore, the DLA
     supply system played a vital role in the improvements claimed by the IPV
     Program.

     DLA Comments on Air Force Determination of IPV Program Success.
     DLA stated that the Air Force formally declared the IPV test program a success
     based on successful performance by the contractor and favorable results from
     their own cost study.

     Audit Response. As previously explained to both the Air Force and DLA, we
     have reservations with the Air Force, “As Is Cost Assessment Study,” and
     believe it inappropriate for use to support the IPV Program. The study claims
     cost avoidances result because under the IPV Program the Air Force avoids
     paying the DLA depot transaction and storage charges for retail level stock
     stored at the local DLA wholesale depot. However, if the wholesale material
     purchased by the Air Force for retail stock is already stocked at the local DLA
     depot the purchased material is not subject to the receipt charge. Receipt
     charges represented the largest cost avoidance claimed in the Air Force study.
     We believe the Air Force study does not represent an accurate depiction of cost
     avoidance and is inappropriate for use to support the IPV Program.
     Consequently, we did not include the results of the study in our report.
                                          28
DLA Comments on Supply System Infrastructure. DLA stated that
references to problems with the Defense Supply System infrastructure
attributable to the IPV Program’s test parameters were unjustified. The IPV
Program is a test to explore innovative logistics solutions for providing bench-
stock and the present DLA logistics support systems will be prudently
maintained concurrently with the IPV initiative. The intention is to assess
performance and determine industry’s ability to support bench stock primarily
using a commercial supply chain through the test period. Meanwhile, the
follow-on acquisition plans are being developed, incorporating program
enhancements, for converting to a fully competitive environment targeting
consolidated requirements. Upon award, the concurrent systems will become
redundant.

Audit Response. The IPV contractor and DLA supply system are redundant
systems managing the same items and the current IPV Program had no strategy
for resolving this issue. Questions exist regarding the contractor’s ability to
meet total IPV Program requirements cost effectively using a commercial supply
chain. Further, the fact that the follow-on acquisition plans are still being
developed, incorporating program enhancements that we believe are
questionable, clearly shows that DLA still does not know how to resolve issues
relating to the redundant systems, competition, and contract bundling.

DLA Comments on Long-Term Agreements. DLA stated that comments
about DSCP non-IPV contracting methods were inaccurate and about 50 percent
of DSCP General and Industrial Directorate’s annual contract obligations are
through long-term agreements.

Audit Response. Although DSCP may be obtaining 50 percent of its contract
obligations through long-term agreements, the audit clearly shows that DSCP
did not use DVD contracts for bench stock requirements outside the IPV
Program. Meanwhile, the IPV contractor provided 11,434 items (nearly all the
requirement) using a single long-term DVD contract.

DLA Comments on Administrative Lead Times and Defense Inventory
Investment. DLA stated that the IPV Program was not designed to effect
administrative lead time or depot inventory for non-IPV items.

Audit Response. We agree that the current IPV Program was not designed to
reduce administrative lead time or depot inventory levels for the identical items
being managed outside the program by DLA. We believe that not developing an
effective strategy to address these critical supply issues was a major deficiency
with the current program. Further, as stated in the, “Reengineer Bench Stock
Management Approach,” section of Finding A, DLA needs to address these
issues in any follow-on acquisition plan incorporating program enhancements.

DLA Comments on Bench Stock Cost Recovery Rates. DLA stated that the
IPV Program has had an insignificant impact on non-IPV cost recovery rates.



                                    29
Audit Response. The IPV Program had a 5.7 percent and 8.3 percent impact
on cost recovery rates for non-IPV items for FYs 2001 and 2002, respectively.
These increases to non-IPV customers are not insignificant.

DLA Comments on Single Process Owner and Integrator Capabilities. DLA
stated that without a single process owner, such as the current IPV integrator
(SAIC), it would not have been possible to achieve the 98 percent fill rate
specified in the contract. DLA also stated that integrators would not be
interested in limited business opportunities such as managing bins, and that its
IPV integrator had extensive modeling and simulation, logistics, system
engineering, and information technology capabilities.

Audit Response. As previously stated, the majority of the material supplied
under the IPV Program came from the DLA depot supply system. As to the
extensive information technology capabilities, the IPV integrator uses only one
contractor to supply more than 11,000 parts and requires the supplier to meet
the 98 percent fill rate. Consequently, we do not agree that the use of an IPV
integrator was solely responsible and is the only solution for achieving improved
fill rates.

DLA Comments on Unique Forecasting Program. DLA stated that the IPV
integrator independently developed a unique forecasting program based on
actual demand patterns and future known requirements that will reduce excess
inventory costs.

Audit Response. We believe that the IPV contractor’s forecasting model is not
unique because the DLA material management system also provides excellent
information on actual demand patterns and DLA item managers include future
known requirements in procurement decisions.

DLA Comments on Other IPV Program. DLA stated that the IPV Program
approach is recognized as providing cost-effective support to DoD maintenance
activities as shown by the Navy and Marine Corps independently awarding IPV
type contracts.
Audit Response. IPV contracts reviewed to date have shown significant
problems relating to obtaining competition, contract bundling, and placing
sufficient material on contract at cost-effective prices.

DLA Comments on IPV Generation II. DLA stated that the IPV Generation
II approach will allow the prime vendor to establish supplier agreements to
achieve the most efficient price, meet delivery requirements, and incur minimal
investment in inventory.

Audit Response. We have reviewed the IPV Generation II approach and
previous Generation II approaches and remain concerned about issues relating to
competition, bundling, cost-effectiveness, existing depot inventory reduction,
and excessive layering of suppliers.


                                   30
     DLA Comments on Incomplete Program Assessment. DLA stated that the
     report does not quantify the impact of the improved fill rates and that an
     independent study had been commissioned to evaluate the IPV Program from a
     total logistics perspective.

     Audit Response. Improving supply of bench-stock material will have a positive
     impact on weapon system readiness, but many other factors also impact
     readiness. The study evaluating the IPV Program from “a total logistics costs
     perspective” should examine the cost-effectiveness of the current program in
     supplying bench-stock material and the costs associated with adding additional
     material to the contract.

     DLA Comments on DLA Vision. DLA stated that an overarching goal to shift
     business practices from managing supplies to managing supplier relationships
     was consistent with guidance from the General Accounting Office and the Under
     Secretary of Defense for Acquisition, Technology, and Logistics relating to
     performance-based initiatives.

     Audit Response. We believe that the cost-effectiveness of a performance-based
     initiative where DLA manages the integrator (SAIC), who manages the supplier
     (Honeywell HPG), who manages the actual suppliers (manufacturers/dealers) of
     the parts, remains to be demonstrated. The value provided by DLA is uncertain
     because of the layers in the process.


Air Force Comments
     Air Force Comments on Test Program. The Air Force stated that the test
     contract (IPV contract) did not use DLA stocks because the intent of the
     program was for the contractor to demonstrate its ability to support Air Force
     customers without DLA support. Although there may be some unnecessary
     expenditure, relying on a large portion of DLA stock would invalidate the test.
     Because a high level of contractor performance has been demonstrated, altering
     the program to draw down DLA stock is now appropriate. The Air Force also
     commented that there was some duplication of manpower because only a small
     number of shops were affected by the test.

     Audit Response. The majority of inventory supplied under the IPV Program
     was from the DLA depot system. This was primarily due to the difficulty in
     placing material on the IPV contract at cost-effective prices. We do agree that
     altering the program to draw down DLA stock levels is appropriate and that as
     more shops are added to the program, the contractor’s manpower efficiency
     should increase.

     Air Force Comments on Manpower Duplication. The Air Force stated that
     the contractor provided a substantially better result than the previous method of
     bench-stock management, and that a higher level of organic staff would have
     been required to achieve the same results. The Air Force also commented that
     there should be significant manpower savings at the wholesale level because
     support issues become the responsibility of the contractor.
                                         31
Audit Response. We agree that the increased staff levels managing bench stock
improved results and also agree that there should be manpower savings at the
wholesale level if total support responsibility is transferred to a contractor.
However, we do not believe the cost-effectiveness of this transfer of total
support responsibility from DLA to a contractor has been sufficiently
demonstrated.

Air Force Comments on Improved Performance. The Air Force stated that
the report gave little attention to improved availability of parts to the Air Force
customer and stated that specific criticisms about the increase in total inventory
is also viewed as a success by the customer. Further, support has improved
dramatically in the shops where the test program has been implemented.

Audit Response. The report states that performance had improved and gave
specific reasons for the improved performance such as increased staff levels
managing bench stock material. Although the customer does benefit in terms of
improved availability when redundant systems are used, we believe that
maintaining redundant systems and excessive wholesale inventory to improve
availability is not in the best interest of the DoD.

Air Force Comments on Market Basket Approach and Competition. The
Air Force stated that “substantial benefits” accrued from bundling this contract.
The Air Force also commented that establishing market basket groups prevented
the contractor from choosing only the easy items to supply and that if the
alternative was to buy the same group of parts at the same or even higher total
cost with more stock shortages, it was time to work through the problems.

Audit Response. Bundling requirements is an issue that DLA needs to resolve
on any follow-on IPV Program. We identified significant deficiencies with the
DSCP market basket approach on this and previous IPV Program audits relating
to placing items on contract at cost-effective prices. At the time of our review,
only 53 percent of the items on the IPV contract had been priced because of
problems obtaining fair and reasonable prices.

Air Force Conclusion. The Air Force stated that the IPV Program has
provided an impressive improvement in customer support at a very modest
additional cost, if any. The Air Force cannot afford to pass up this opportunity.

Audit Response. The additional cost associated with the IPV Program has yet
to be determined because the majority of the items supplied under the contract
were from the DLA depot system and only 53 percent of the items on contract
had been priced. In addition, only about half of the priced items on contract had
been purchased/supplied by the IPV contractor.




                                     32
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
  Director, Acquisition Initiatives
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Fleet Industrial Supply Center, San Diego
Commanding Officer, Naval Aviation Depot, Cherry Point
Commanding Officer, Naval Aviation Depot, North Island

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force
Commander, Air Force Material Command
  Commander, Ogden Air Logistics Center
  Commander, Oklahoma City Air Logistics Center
  Commander, Warner Robins Air Logistics Center




                                          33
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Philadelphia
   Commander, Defense Supply Center Richmond

Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          34
Defense Logistics Agency Comments




                     35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
Department of the Air Force Comments




                     50
51
52
53
54
55
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephensen
Henry F. Kleinknecht
Patrick J. Nix
Joseph P. Bucsko
Ricky T. Phaison
Matthew J. Rok
